No. 20-826
IN THE

Supreme Court of the United States
MIKE BROWN, ACTING WARDEN,
Petitioner,
v.
ERVINE DAVENPORT,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I, Tasha J. Bahal, a member of the
bar of this Court, certify that the accompanying Brief in Opposition contains 8,336
words, excluding the parts of the document that are exempted by Supreme Court Rule
33.1(d).
Executed on February 18, 2021.

TASHA J. BAHAL
WILMER CUTLER PICKERING
HALE AND DORR LLP
60 State Street
Boston, MA 02109
(617) 526-6000
tasha.bahal@wilmerhale.com

